Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




   Fiscal Intermediary Fraud Units




                   JUNE GIBBS BROWN
                    Inspector General

                     NOVEMBER 1998
                      OEI-03-97-00350
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Philadelphia Regional Office prepared this report under the direction of Robert A. Vito,
Regional Inspector General, and Linda M. Ragone, Deputy Regional Inspector General. Principal
OEI staff included:

REGION                                                   HEADQUARTERS

Isabelle Buonocore, Project Leader                       Wynethea N. Walker, Program Specialist

Tara J. Schmerling, Lead Analyst                         Lisa A. Foley, Program Specialist

Cynthia R. Hansford, Program Assistant

Erika Quitiquit Lang, Program Analyst

David Tawes, Program Analyst



     To obtain copies of this report, please call the Philadelphia Regional Office at (215) 861-4551.
          Reports are also available on the World Wide Web at our home page address:

                                  http://www.dhhs.gov/progorg/oei
                    EXECUTIVE SUMMARY


PURPOSE

The purpose of this report is to provide national information on fiscal intermediary fraud units.

BACKGROUND

Fiscal intermediaries are companies under contract with the Health Care Financing Administration
(HCFA) to administer a major part of the Medicare program. Individual fiscal intermediaries vary
in many ways including the amount of claims and payments they process. Likewise, their fraud
units differ from one another. But, all must meet requirements outlined in the Medicare
Intermediary Manual. Fiscal intermediaries were responsible for $130 billion, or 75 percent, of
total Medicare payments in 1996. The other 25 percent was handled by companies called carriers.

The HCFA requires that fiscal intermediaries and carriers have distinct units to detect and deter
fraud and abuse. These units are part of HCFA’s overall Medicare integrity program and are
monitored by HCFA regional offices. The HCFA is currently planning to separate future anti-
fraud functions from other intermediary and carrier operations. These activities will become the
purview of a few contractors to be known as program safeguard contractors.

For this report, we surveyed all 41 fiscal intermediary fraud units that were under contract with
HCFA in 1996 and still under contract in 1998. We collected fraud unit data for fiscal year 1996.

FINDINGS

Fraud units differed substantially in the number of complaints and cases handled. Some
units produced few, if any, significant results.

While one would expect units of different size and resources to handle different size workloads,
we found units of similar size and resources handling substantially different workloads.

  <    Fraud units handled between 3 and 1,892 complaints per unit.

  <    The number of cases handled by each fraud unit ranged from 0 to 625.

  <    Fraud units referred between 0 and 102 cases to the Office of Inspector General.

Despite HCFA’s expectation that fraud units proactively identify fraud, half of the fraud units
did not open any cases proactively.

More than one-third of fraud units did not identify program vulnerabilities.



                                          )))))))))))
                                               i
Key words and terms related to fraud unit work vary in meaning. This hinders HCFA’s
ability to interpret fraud unit data and measure fraud unit performance.

RECOMMENDATIONS

The HCFA and fiscal intermediary fraud units have significant responsibilities in identifying and
deterring fraud in a part of the Medicare program where $130 billion is at risk. The variation in
fraud detection, especially among units with similar resources, raises concern about possible poor
performance by some fraud units.

Although HCFA currently conducts performance evaluations of fraud units, we believe there is a
need to strengthen the monitoring and oversight of contractors’ efforts to identify fraud and
abuse. In recent years, HCFA has focused on continuous improvement as a method of evaluating
contractor performance. In light of the disparity in fraud detection among contractors, the agency
may need to refocus its evaluation efforts to include some type of return on investment analysis.

In order that HCFA may have a better understanding of fraud unit performance, which in turn will
lead to making better decisions about fraud unit funding, selecting future contractors, and
working collaboratively with other anti-fraud entities, we recommend that HCFA:

  <	   Improve the contractor performance evaluation system so that it not only encourages
       continuous improvement, but also holds contractors accountable for meeting specific
       objectives.

  <	   Require that all contractor performance evaluations list HCFA’s national and regional
       objectives and address whether or not the fraud unit is meeting those objectives.

  <	   Establish a standard set of data that can be used to measure fraud units’ performance in
       meeting established objectives. Require that all contractor performance evaluation reports
       contain this data.

  <	   Establish clear definitions of key words and terms (e.g., complaint, case, program
       vulnerability, and overpayment). Disseminate definitions and require that HCFA program
       integrity staff and fraud unit staff use the same definitions. In a future update of the
       Medicare Intermediary Manual, revise sections so that these words are consistently used
       to mean the same thing.

  <	   Provide opportunities for fraud units to exchange ideas, compare methods, and highlight
       best practices relating to fraud and abuse detection.

COMMENTS

The draft of this report was reviewed by HCFA, and they concurred with our recommendations.
In concurring with the recommendations, HCFA stated that (1) they plan to develop specific
national objectives, (2) they are designing a new program integrity management information


                                         )))))))))))
                                              ii
system, (3) they identified and distributed a list of the most significant data metrics for regional
office use in the fiscal year 1998 contractor evaluation process, (4) they will review definitions of
key words in the Medicare Intermediary Manual and make appropriate revisions, and (5) they
convened a national conference in March 1998 to identify best practices in fighting waste, fraud,
and abuse.




                                          )))))))))))
                                               iii
                              TABLE OF CONTENTS


                                                                                                                                PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


    Complaints and Cases . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


    Proactive Cases . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


    Program Vulnerabilities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


    Key Words and Terms . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

ENDNOTES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

APPENDICES

    Fraud Unit Tables . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A - 1

    Comments from the Health Care Financing Administration . . . . . . . . . . . . . . . . . . . . . . . B - 1
                             INTRODUCTION


PURPOSE

The purpose of this report is to provide national information on fiscal intermediary fraud units.

BACKGROUND

Fiscal Intermediaries

Fiscal intermediaries are companies under contract with the Health Care Financing Administration
(HCFA) to administer a major part of the Medicare program. As a group, fiscal intermediaries
have responsibility for processing 75 percent of Medicare payments. Other contractors called
carriers process the remaining 25 percent. In 1996, fiscal intermediaries processed $130 billion in
Medicare payments.1 Intermediaries pay for inpatient services under Medicare Part A, and certain
types of outpatient claims under Medicare Part B. The types of providers billing intermediaries
are: hospitals, skilled nursing facilities, home health agencies, rural health clinics, renal dialysis
centers, federally qualified health centers, rehabilitation facilities, community mental health
centers, and hospices. Individual fiscal intermediaries vary in the amount of Medicare claims and
payments they process.

Fraud Units

Fraud units are part of HCFA’s overall Medicare integrity program. As of 1993, HCFA required

all fiscal intermediaries and carriers to have distinct units to detect and deter Medicare fraud. In

1996, HCFA budgeted 20 percent of its program integrity dollars to fiscal intermediary fraud units

and 80 percent to carrier fraud units. From 1993 through 1997, funding was based mainly on the

contractors’ claim volume. However, in fiscal year 1998, HCFA changed the funding

methodology to take into account the contractors’ workload, risk, and performance.2


Fraud units differ in human and financial resources as well as workload. However, regardless of

differences, they all must meet requirements outlined in the Medicare Intermediary Manual. 

According to the Manual (Section 3950ff), fraud units are expected to:


 !     identify program vulnerabilities; 

 !     proactively identify fraud within their service area and take appropriate action; 

 !     determine factual basis of complaints of fraud made by beneficiaries, providers, HCFA,

       Office of Inspector General (OIG), and other sources;
 !     explore fraud leads in their jurisdiction;
 !     initiate action to deny or suspend payments where there is reliable evidence of fraud;
 !     develop cases and refer them to the OIG for consideration of civil and criminal
       prosecution and/or application of administrative sanctions; and
 !     provide outreach to providers and beneficiaries.


                                          )))))))))))
                                               1
The HCFA also has other expectations of the fraud unit. For example, all fraud units must enter
their fraud cases in the national Fraud Investigation Database. The database was created by
HCFA and implemented in May 1996. It tracks contractors’ cases of fraud and abuse. It is meant
to be an information sharing tool for Medicare, Medicaid, and law enforcement agencies,
including the OIG, Federal Bureau of Investigations, and Department of Justice. Also, HCFA has
stressed that fraud units should develop fraud cases through proactive data analysis, and not use
complaints as the sole driver of case development.

Oversight of Fraud Units

The HCFA regional offices have oversight authority for the contractor fraud units in their regions.
They stay in touch with fraud unit staff, oversee the Fraud Investigation Database, and collect
various mandatory reports (e.g., quarterly workload reports) from the fraud units. The regional
HCFA staff conduct annual or biennial performance evaluations of each fraud unit. They give the
fraud unit a written evaluation report, pointing out areas where the unit has improved from the
previous evaluation and where the unit has weaknesses. Emphasis is on continuous improvement.
Copies of evaluation reports are sent to HCFA Central Office.

New Program Safeguard Contractors

The HCFA is currently planning to separate future anti-fraud activities from other carrier and
fiscal intermediary operations. These activities will become the purview of new contractors to be
known as program safeguard contractors.3

National Study of Fiscal Intermediary Fraud Units and Related OIG Studies

This study is the first national evaluation of fiscal intermediary fraud units since their creation in
fiscal year 1993. Our national study of carrier fraud units was issued in November 1996 (Carrier
Fraud Units, OEI-05-94-00470). In August 1995, we issued a study of HCFA’s new approach to
monitoring contractors’ program integrity efforts (Monitoring Medicare Contractor
Performance: A New Approach, OEI-01-93-00160).

SCOPE AND METHODOLOGY

We surveyed all 41 fiscal intermediaries that were under contract in 1996 and still under contract
in 1998. We selected fiscal year 1996 as the period for our study because it was the most recent
year for which a complete year of fraud unit workload data were available. In the text and tables
of this report, complaint and case workload data represents fiscal year 1996. These workload
data include complaints and cases that were open during any part of fiscal year 1996.

Fraud Unit Information

Our primary data collection instrument was a self-administered questionnaire. It was mailed to all
fraud unit managers, and all fraud units responded. We also telephoned the fraud units to answer


                                          )))))))))))
                                               2
any questions they might have about the intent of the questionnaire and the definition of terms
used. When incomplete questionnaires were returned to us, we contacted the fraud units for
clarification. We did not, however, independently verify the responses.

The questionnaire was developed with assistance from HCFA staff in Central Office and Region
III as well as a fiscal intermediary fraud unit manager. These individuals provided insight as to the
variety of fraud unit operations and the kind of data that should be available from all units. They
also provided advice on question wording, layout, and definition of terms. The program integrity
staff in HCFA Central Office gave us the definitions for the terms “complaint” and “case,” and we
used their definitions with minor paraphrasing. A complaint is an allegation of fraud or abuse
committed by a provider, beneficiary, or other individual or entity against the Medicare program.
A case is expanded data collection and analysis performed on (1) substantiated complaints, or (2)
proactively identified fraud or abuse.

While most fraud units handle complaints as well as cases, and while complaints may lead to the
collection of overpayments, our questionnaire contained few questions about complaints.
Complaints frequently turn out to be misunderstandings or billing errors, not fraud or abuse.
Therefore, we limited complaint questions to the issue of complaint volume in the fraud unit
workload.

In addition to collecting data from the fraud units, we collected data from HCFA regarding
Medicare payment amounts, claim volume, and fraud unit funding. In order to compare fraud
units of similar size, we arrayed the 41 intermediaries by the amount of their 1996 Medicare
payments. We did not use claim volume as a size indicator because HCFA’s database did not
contain claim volume for two of the 1996 intermediaries. In any case, Medicare payments and
claim volume were generally correlated. We then grouped the intermediaries into large, medium,
and small categories, as shown in the table below.

We calculated the totals and medians for key variables within the large, medium, and small
categories including: fiscal intermediary Medicare payments, fraud unit budget, full-time-
equivalent (FTE) staff, complaint volume, case volume, number of fraud unit cases opened
proactively, number of cases referred to the OIG, and number of program vulnerabilities
identified. Hereinafter, when we refer to large, medium, and small fraud units, we are referring to
the units in the intermediary size categories shown in the table below.

        SIZE CATEGORY              # OF INTERMEDIARIES          RANGE OF 1996 MEDICARE PAYMENTS

           LARGE                           11                            Over $4 billion

          MEDIUM                           18                       Between $1 and $4 billion

           SMALL                           12                          Less than $1 billion



Review of Contractor Performance Evaluations



                                          )))))))))))
                                               3
In addition to the fraud unit questionnaire, we collected contractor performance evaluations for
1995, 1996, and 1997. Between 1995 and 1997, HCFA conducted at least one evaluation for 40
of the 41 fraud units in our study. Most of the evaluation reports were sent to us by the fraud
units. The remainder came from HCFA.

We reviewed one evaluation report for each fraud unit evaluated between fiscal years 1995 and
1997. Since all fraud units are not evaluated annually, we reviewed as many as possible (22) for
our study year. We then sought evaluations from 1997 (5) and then from 1995 (13) for a total of
40 evaluations. We examined the following variables in each evaluation report: cases, complaints,
proactive data analysis, and identification of program vulnerabilities.
                                           _____________

This study was conducted in accordance with the Quality Standards for Inspections issued by the
President’s Council on Integrity and Efficiency.




                                        )))))))))))
                                             4
                                              FINDINGS



FRAUD UNITS DIFFERED SUBSTANTIALLY IN THE NUMBER OF COMPLAINTS
AND CASES HANDLED. SOME FRAUD UNITS PRODUCED FEW, IF ANY,
SIGNIFICANT RESULTS.

While one would expect fraud units of different size and resources to handle different size
workloads, we found units of similar size and resources handling substantially different
workloads. We also found some small fraud units that had greater workloads than larger units
with more resources. In addition, some fraud units did not develop any cases or send any case
referrals to the OIG.

Fraud units handled between 3 and 1,892 complaints per unit.

A total of 17,796 complaints were handled by 39 fraud units. Two of the 41 fraud units reported
that they did not handle complaints. In those two instances, the fiscal intermediary had other staff
screening complaints, and the fraud unit handled only cases.

As shown in the table below, the range of complaints handled by fraud units of similar size is quite
broad. Among large fraud units, the unit with the highest complaint workload handled eight times
more complaints than the unit with the smallest workload. Among medium and small units, the
largest workload of complaints was 20 and 100 times greater than the smallest workload.


                  Range of Complaints Handled by Fraud Units of Similar Size
      Size           Number of             Highest # of                Lowest # of          Median # of
    Category         Fraud Units        Complaints Handled          Complaints Handled   Complaints Handled
      Large                11                    1,892                     223                  795

    Medium                 18                    1,508                      74*                 311*

      Small                12                      357                       3                   63

 *Does not include the two fraud units that did not handle complaints.


Not only were there significant differences among fraud units within the same size category but
unexpected differences were also found between categories. In the aggregate, as evidenced by
the median number of complaints (see table above), larger units tended to handle more complaints
than smaller units. However, one small fraud unit had more complaints than three of the large
fraud units and twelve of the medium-sized units. The table on the next page lists each unit by
size, and provides data regarding intermediary Medicare payments and fraud unit resources,
complaint workload, and case workload.



                                                    )))))))))))
                                                         5
                 Variability in Large, Medium, and Small Fraud Units
                       Medicare           Fraud Unit   Fraud Unit   Fraud Unit   Fraud Unit
            ID#
                       Payments            Budget        FTEs       Complaints     Cases
             1      $10,013,524,077        $428,100       6.25        1696          168
             2       $9,574,962,625        $612,300        6          1892          12
             3       $8,156,383,788        $359,000       2.5          802*         45*
             4       $6,125,735,620        $353,452       3.75         795         564*

Large        5       $5,860,334,858        $374,128       7.25        1750          259
             6       $5,698,345,959        $486,534        5           371         365*
             7       $5,138,463,636        $360,200        3           223          128
             8       $4,695,746,722        $363,000        7          1277          18
             9       $4,266,043,734        $518,300        6           307          236
            10       $4,205,559,254        $402,000       3.5          250          78
            11       $4,164,323,154        $512,680       8.25         385          192
            12       $3,946,244,913        $45,760        1.75          88           0
            13       $3,528,029,526        $231,800       3.5          699          50
            14       $3,046,336,774        $217,600        3           240           3
            15       $3,033,310,183        $249,400       2.75         559          15
            16       $2,825,729,802        $125,640        2            74           6
            17       $2,714,180,846        $155,809        3           646          31*
            18       $2,687,677,846        $145,800        3           250          25
            19       $2,413,141,222        $111,508        3           935          625
Medium      20       $2,409,518,487        $142,100       1.5          158          11
            21       $2,049,178,456        $100,000       2.5          402          79
            22       $1,619,800,963        $87,993        1.75          0           285
            23       $1,600,681,825        $156,470       1.75         320          22
            24       $1,544,764,282        $107,900       1.25          0           65
            25       $1,246,209,143        $74,248        1.5          307*        190*
            26       $1,132,721,108        $109,600        2           157           2
            27       $1,093,918,076        $81,600         1          1508          83
            28       $1,066,891,562        $50,953        1.5          314         246*
            29       $1,063,221,043        $103,700        1           193           0
            30        $993,720,360         $74,100       2.25          357          46
            31        $986,682,696         $55,000        1.5          116          40
            32        $940,136,850         $97,035        2.5          242          35
            33        $573,157,206         $62,600         2           158           1
            34        $501,923,887         $45,800         2           123           7

Small       35        $461,651,557         $58,200         1            9           51
            36        $418,758,568         $79,300        1.5          24           13
            37        $318,344,371         $34,218       1.25          97            1
            38        $300,584,905          $7,841       1.25           3            9
            39        $287,546,633          $4,400        0.5          28            1
            40        $258,659,723         $40,400        0.5          27            1
            41        $109,546,573         $15,400       0.25          14            0
          TOTAL $113,071,692,814          $7,641,869    112.75        17,796       4,008

         * Workloads estimated by fraud units.



                                            )))))))))))
                                                 6
The number of cases handled by each fraud unit ranged from 0 to 625.

Nationally, fraud units handled a total of 4,008 cases. Of the 41 fraud units, 3 did not have any
cases. As shown in the table below, the difference between the fraud units with the highest and
lowest cases handled in each category is extreme.


                   Range of Cases Handled by Fraud Units of Similar Size
      Size        Number of          Highest # of          Lowest # of           Median # of
    Category      Fraud Units       Cases Handled         Cases Handled         Cases Handled
     Large             11                564                    12                   168

    Medium             18                625                     0                    28

      Small            12                 51                     0                     8


Variation among individual fraud units could not always be explained by size or resources (see
table on page 6). For example, of the three fraud units with zero cases, two were medium fraud
units and one was small. In addition, the fraud unit with the largest caseload (625) was a medium
unit. This unit had one-third the fraud budget of any large fraud unit and less staff than most large
units. Another example is that 60 percent of the medium units and 25 percent of the large units
handled fewer cases than one of the small fraud units. Moreover, the large fraud unit with the
least number of cases (12) had the highest budget and 6 FTEs. In contrast to this, the large fraud
unit with the highest caseload (564) had the smallest budget and fewer staff.

Fraud units referred between 0 and 102 cases to the OIG.

Fraud units are required to develop cases and refer them to the OIG for consideration of civil and
criminal prosecution and/or the application of administrative sanctions. The fraud units referred a
total of 346 cases to the OIG in 1996 (9 percent of the national case workload).

Ten fraud units (5 medium and 5 small units) made no referrals to the OIG. Out of 41 fraud units,
27 (or 66 percent) referred three or fewer cases. Nearly half of fraud units referred less than 5
percent of their cases to the OIG. Table 1 in Appendix A provides a list of all fraud units in large,
medium, and small categories, and shows the number and percent of each unit’s case workload
that was referred to the OIG.

As with complaint and case workloads, the number of case referrals to the OIG differed among
fraud units of similar size. For example, although 79 percent of cases referred to the OIG (273 of
346) were from large fraud units, there was a wide disparity among individual units in this
category. One large unit was responsible for nearly 30 percent of all cases referred to the OIG
(102 of 346). This was twice as many as the unit with second highest number of referrals (51 of
346). In contrast, four large units referred seven or fewer cases each.

Between size categories, several smaller fraud units referred more cases than larger units. For
instance, one medium unit referred more cases than over half (7 of 11) of the large units. Another


                                          )))))))))))
                                               7
example is that one small unit referred more cases than three-quarters of the medium units and
one-quarter of the large units.

Overall, 56 percent of the 346 referred cases were accepted by the OIG. Another 16 percent
were referred by the OIG to other law enforcement agencies. Nine percent of the cases were
returned to the fraud units for administrative closure, and 1 percent were returned for further
development. The fraud units could not provide the status of the remaining 18 percent of referred
cases. Individual fraud units had OIG acceptance rates ranging from 0 to 100 percent of cases.
Table 2 in Appendix A provides the number and status of cases fraud units referred to the OIG.

DESPITE HCFA’S EXPECTATION THAT FRAUD UNITS PROACTIVELY IDENTIFY
FRAUD, HALF OF THE UNITS DID NOT OPEN ANY CASES PROACTIVELY.

Overall, fraud units developed few cases proactively. Even though HCFA emphasizes the
importance of doing proactive work, most cases were developed in reaction to complaints. Of
the 4,008 fraud unit cases, only 5 percent (184) were opened as a result of proactive case
development. Fifty-one percent of fraud units (21 of 41) did not open any cases proactively.
Furthermore, the fraud unit opening the largest number of proactive cases (97) was responsible
for more than half the national total. The unit with the second highest number of proactive cases
had 24, and the unit with the third highest number had 10. These three units alone opened 71
percent of the proactive cases. Rarely did the size of the fiscal intermediary, or the resources of
the fraud unit correlate to the number of cases opened proactively. For example, half the large,
medium, and small fraud units had no such cases, and one small fraud unit had seven (see
Appendix A, Table 3).

Ninety percent of fraud units (37 of 41) said they used proactive methods in their attempt to
uncover fraud and abuse. Yet, only half of these units (20 of 37) opened any cases proactively.
Seventeen units that said they used proactive methods did not open cases as a result of their
proactive work.

The most commonly used proactive method was data analysis. Used by 80 percent of fraud units,
proactive data analysis was used to open 72 percent of proactive cases (133 of 184). Proactive
data analysis is defined as using data to identify fraud leads by looking for patterns, trends, or
aberrancies versus using data solely to expand the scope of an investigation. The second most
common method of proactively identifying fraud was networking with other intermediary units
and with external entities. Used by 56 percent of fraud units, networking was used to open 21
percent of proactive cases (38 of 184). Table 4 in Appendix A lists the proactive methods used
by fraud units, the number and percent of units that used each method, and the number of times
the method was used to open cases.

In our review of the units’ contractor performance evaluations, we found that 80 percent of the
evaluation reports (32 of 40) addressed the subject of using proactive methods to identify fraud.
In addition, 65 percent (26 of 40) specifically noted whether or not the unit had conducted any
proactive data analysis. However, only 50 percent (20 of 40) reminded the fraud units that they
are expected to conduct proactive data analysis to identify potential fraud cases.



                                          )))))))))))
                                               8
MORE THAN ONE-THIRD OF FRAUD UNITS DID NOT IDENTIFY PROGRAM
VULNERABILITIES.

The identification of program vulnerabilities heads the list of fraud unit responsibilities in the
Medicare Intermediary Manual. Yet 39 percent of fraud units (16 of 41) did not identify any. In
addition, fraud units are not required to keep track of identified program vulnerabilities.4 At least
one fraud unit that identified vulnerabilities had to rely on memory to describe them.

In our review of the contractor performance evaluations, we found that few HCFA reviewers
addressed the importance of identifying program vulnerabilities. Only 10 percent of evaluation
reports (4 of 40) stated whether or not the fraud unit identified any program vulnerabilities, and
only 18 percent (7 of 40) reminded the fraud unit they are expected to identify them.

Sixty-one percent of fraud units (25 of 41) identified a total of 61 program vulnerabilities. The
number of vulnerabilities identified by these units ranged from 1 to 5 (see Appendix A, Table 3).
Based on fraud unit descriptions of the vulnerabilities, 52 percent (32 of 61) seemed to be
systematic problems that make the Medicare program vulnerable to abuse, such as, loose
guidelines that promote inappropriate billing for a service. Another 41 percent (25 of 61) were
described as instances of wrongdoing, such as, billing a non-covered service as a covered service.
The remaining 7 percent (4 of 61) were simply described as types of providers, such as, an
assisted living facility or a community mental health center.

KEY WORDS AND TERMS RELATED TO FRAUD UNIT WORK VARY IN
MEANING. THIS HINDERS HCFA’S ABILITY TO INTERPRET FRAUD UNIT DATA
AND MEASURE FRAUD UNIT PERFORMANCE.

The HCFA and fraud unit staffs have work-related terms which help them communicate about
program integrity operations and performance outcomes. This specialized language is necessary
in order to quickly convey meaning about complex subjects. Many of the words and terms do not
sound like specialized terms because they are also used in common speech, e.g., “complaint,”
“case,” “program vulnerability” and “overpayment.” However, for Medicare fraud control, these
words have special meanings. For example, a “complaint” is not simply an expression of
discontent, it is an allegation of fraud or abuse. In addition, among fraud unit and HCFA staff,
meanings of key words can vary depending on who is using them and the context in which they
are used.

The variety of meanings for key terms is a problem in the Medicare integrity program because it
hinders HCFA’s ability to interpret the data it receives from fraud units and its regional oversight
staff. In addition, there are potential problems when HCFA and fraud units share data with one
another or collaborate with other fraud control entities. Furthermore, differences in the use of key
terms in contractor performance evaluations make performance measurement with this tool
difficult if not impossible. These shortcomings are likely to hamper HCFA’s effectiveness in
making funding decisions or selecting future program safeguard contractors.

Below we discuss a few key terms that vary in meaning and, consequently, can hinder HCFA in its
ability to interpret data and measure performance.


                                          )))))))))))
                                               9
Complaints and cases

Complaints and cases represent two very different types of workload, yet the terms are often used
interchangeably and sometimes are tracked as one type of workload. In our fraud unit
questionnaire, we required fraud units to (1) distinguish complaints from cases when they
quantified their workload, and (2) use the definitions for case and complaint given in the
questionnaire. The purpose of these requirements was to ensure data integrity. However, this
posed a problem for several fraud units. For example, it was necessary for some fraud units to
estimate their workload numbers because they had one computer tracking system that did not
distinguish cases from complaints.

In addition, the terms case and complaint were also confused in contractor performance
evaluations. In 43 percent of the evaluation reports (17 of 40), the words case and complaint
were used interchangeably. Moreover, we found inconsistencies in the way the words case and
complaint were used in the Medicare Intermediary Manual (section 3966), and in certain HCFA
guidelines for reporting fraud unit activities.

Program vulnerabilities

The Medicare Manual (section 3953) directs fraud units to “identify Medicare and intermediary
policies and procedures that may make Medicare vulnerable to fraud and abuse.” A shorter way
of saying this is that fraud units should identify program vulnerabilities. However, the term
“program vulnerability” is another key term that has more than one interpretation. As we
mentioned previously, fraud units identified 61 program vulnerabilities. Yet, all the vulnerabilities
fraud units described were not systematic problems which make Medicare vulnerable to fraud and
abuse. Forty-one percent of them (25 of 61) were described as instances of wrongdoing by a
provider, and 7 percent (4 of 61) were described as types of providers.

Overpayments

Responses to our fraud unit questionnaire suggest that the word overpayment may have various
meanings in the context of contractor operations and fraud unit cases. In general, overpayments
are Medicare funds that providers receive in excess of amounts owed to them, but we did not
provide this definition in our questionnaire. We asked the fraud units to list their cases where
overpayments were identified (not recovered) in fiscal year 1996. Our analysis found that fraud
units identified overpayments in only 15 percent of the national case workload (610 of 4,008) and
in 36 percent of cases referred to the OIG (124 of 346) even though the Manual (section 3968)
states that identifying overpayments is part of the case development process.

It is conceivable that fraud units were defining the term overpayment in one of two ways when
answering our question: (1) as the actual amount of money they requested back from providers,
or (2) the amount of money at risk associated with a fraud case. If some fraud units used the first
definition, it is possible that they would not have listed an overpayment amount for this question.
However, it is also possible that the fraud units were unable to determine or track the risk
associated with fraud cases.



                                          )))))))))))
                                               10
                      RECOMMENDATIONS

The Health Care Financing Administration (HCFA) and fiscal intermediary fraud units have
significant responsibilities in identifying and deterring fraud in a part of the Medicare program
where $130 billion is at risk. The variation in fraud detection, especially among units with similar
resources, raises concern about possible poor performance by some fraud units.

Although HCFA currently conducts performance evaluations of fraud units, we believe there is a
need to strengthen the monitoring and oversight of contractors’ efforts to identify fraud and
abuse. In recent years, HCFA has focused on continuous improvement as a method of evaluating
contractor performance. In light of the disparity in fraud detection among contractors, the agency
may need to refocus its evaluation efforts to include some type of return on investment analysis.

In order that HCFA may have a better understanding of fraud unit performance, which in turn will
lead to making better decisions about fraud unit funding, selecting future contractors, and
working collaboratively with other anti-fraud entities, we recommend that HCFA:

  <	   Improve the contractor performance evaluation system so that it not only encourages
       continuous improvement, but also holds contractors accountable for meeting specific
       objectives.

  <	   Require that all contractor performance evaluations list HCFA’s national and regional
       objectives and address whether or not the fraud unit is meeting those objectives.

  <	   Establish a standard set of data that can be used to measure fraud units’ performance in
       meeting established objectives. Require that all contractor performance evaluation reports
       contain this data.

  <	   Establish clear definitions of key words and terms (e.g., complaint, case, program
       vulnerability, and overpayment). Disseminate definitions and require that HCFA program
       integrity staff and fraud unit staff use the same definitions. In a future update of the
       Medicare Intermediary Manual, revise sections so that these words are consistently used
       to mean the same thing.

  <	   Provide opportunities for fraud units to exchange ideas, compare methods, and highlight
       best practices relating to fraud and abuse detection.

COMMENTS

The draft of this report was reviewed by HCFA, and they concurred with our recommendations.
In concurring with the recommendations, HCFA stated that (1) they plan to develop specific
national objectives, (2) they are designing a new program integrity management information
system, (3) they identified and distributed a list of the most significant data metrics for regional
office use in the fiscal year 1998 contractor evaluation process, (4) they will review definitions of
key words in the Medicare Intermediary Manual and make appropriate revisions, and (5) they


                                          )))))))))))
                                               11
convened a national conference in March 1998 to identify best practices in fighting waste, fraud,
and abuse. The full text of HCFA’s comments is in Appendix B.




                                         )))))))))))
                                              12

                                   ENDNOTES


1. The 41 fiscal intermediaries in our study processed $113 billion in Medicare payments in 1996.

2. The Health Care Financing Administration’s funding of all Medicare fraud control activities
since the passage of the Health Insurance Portability and Accountability Act of 1996, is discussed
in the U.S. General Accounting Office’s report, Medicare: HCFA’s Use of Anti-Fraud-and-
Abuse Funding and Authorities (GAO/HEHS-98-160), issued June 1998.

3. In September 1998, the Health Care Financing Administration made available a Scope of Work
regarding Program Safeguard Contractors.

4. Nowhere in section 3950ff of the Medicare Intermediary Manual is there a requirement to
track the number or kind of program vulnerabilities that fraud units identify.




                                         )))))))))))
                                              13
                            APPENDIX A
         Table 1: Fraud Unit Cases Referred to the OIG in FY 1996
                         Total Cases          Number of Cases       Cases Referred as a
            ID#
                          FY 1996            Referred to the OIG   Percent of Total Cases
              1               168                    3                      2%
              2               12                     3                     25%
              3                45*                   21                    47%
              4               564*                   17                     3%
              5               259                    51                    20%
Large
              6               365*                   16                     4%
              7               128                   102                    80%
              8               18                     7                     39%
              9               236                    15                     6%
             10               78                     3                      4%
             11               192                    35                    18%
             12                0                     0                       -
             13               50                     0                      0%
             14                3                     3                     100%
             15               15                     0                      0%
             16                6                     3                     50%
             17               31*                    4                     13%
             18               25                     3                     12%
             19               625                    5                      1%
             20               11                     3                     27%
Medium
             21               79                     3                      4%
             22               285                    0                      0%
             23               22                     3                     14%
             24               65                     2                      3%
             25              190*                    20                    11%
             26                2                     2                     100%
             27               83                     1                      1%
             28              246*                    5                      2%
             29                0                     0                       -
             30               46                     4                      9%
             31               40                     1                      3%
             32               35                     5                     14%
             33                1                     1                     100%
             34                7                     0                      0%
             35               51                     3                      6%
Small
             36               13                     1                      8%
             37                1                     1                     100%
             38                9                     0                      0%
             39                1                     0                      0%
             40                1                     0                      0%
             41                0                     0                       -
          TOTAL              4,008                  346                     9%
         * Workloads estimated by fraud units.




                                       )))))))))))
                                           A-1
         Table 2: Disposition of Fraud Unit Cases Referred to the OIG in FY 1996
                                                Cases Referred Cases Returned Cases Returned
                      Cases          Cases                                                      Cases Where
                                                  by OIG to     to Fraud Unit to Fraud Unit for
           ID #     Referred to   Accepted by                                                    Status was
                                                  Other Law      for Further   Administrative
                     the OIG        the OIG                                                       Unknown
                                                 Enforcement    Development       Handling
            1           3             2               0              0               1              0
            2           3             0               1              0               2              0
            3           21            15              0              0               0              6
            4           17            16              0              0               1              0
            5           51            11              2              0               1             37
Large
            6           16            6               3              0               3              4
            7          102            98              0              0               2              2
            8           7             0               5              0               0              2
            9           15            5               0              1               6              3
            10          3             0               2              0               0              1
            11          35            13             18              0               3              1
            12          0              -              -              -               -              -
            13          0              -              -              -               -              -
            14          3             0               3              0               0              0
            15          0              -              -              -               -              -
            16          3             1               2              0               0              0
            17          4             0               3              1               0              0
            18          3             1               0              0               0              2
            19          5             1               1              0               3              0
            20          3             2               1              0               0              0
Medium
            21          3             2               1              0               0              0
            22          0              -              -              -               -              -
            23          3             0               1              1               1              0
            24          2             2               0              0               0              0
            25          20            9               2              0               6              3
            26          2             2               0              0               0              0
            27          1             1               0              0               0              0
            28          5             0               4              0               1              0
            29          0              -              -              -               -              -
            30          4             4               0              0               0              0
            31          1             1               0              0               0              0
            32          5             1               3              0               0              1
            33          1             0               0              1               0              0
            34          0             -               -              -               -              -
            35          3             1               1              0               1              0
Small
            36          1             1               0              0               0              0
            37          1             0               1              0               0              0
            38          0             -               -              -               -              -
            39          0             -               -              -               -              -
            40          0             -               -              -               -              -
            41          0             -               -              -               -              -

          TOTAL        346           195             54              4              31             62
            % OF
           CASES      100%           56%            16%             1%              9%             18%
         REFERRED



                                           )))))))))))
                                               A-2
         Table 3: Proactive Cases Opened and Program Vulnerabilities Identified
             ID#        Medicare           Fraud Unit     Fraud Unit   Total Fraud   Proactive     Program
                        Payments            Budget          FTEs       Unit Cases     Cases**    Vulnerabilities
              1      $10,013,524,077        $428,100         6.25         168           4              3
              2       $9,574,962,625        $612,300           6           12           1              0
              3       $8,156,383,788        $359,000          2.5          45*          0              3
              4       $6,125,735,620        $353,452         3.75         564*          0              5
              5       $5,860,334,858        $374,128         7.25         259           4              0
Large
              6       $5,698,345,959        $486,534           5          365*          10             4
              7       $5,138,463,636        $360,200           3          128           97             3
              8       $4,695,746,722        $363,000           7           18           0              1
              9       $4,266,043,734        $518,300           6          236           0              2
             10       $4,205,559,254        $402,000          3.5          78           6              2
             11       $4,164,323,154        $512,680         8.25         192           0              2
             12       $3,946,244,913        $45,760          1.75          0            0              0
             13       $3,528,029,526        $231,800          3.5          50           6              1
             14       $3,046,336,774        $217,600           3           3            0              0
             15       $3,033,310,183        $249,400         2.75          15           0              2
             16       $2,825,729,802        $125,640           2           6            3              0
             17       $2,714,180,846        $155,809           3           31*          3              3
             18       $2,687,677,846        $145,800           3           25           0              1
             19       $2,413,141,222        $111,508           3          625           0              0
             20       $2,409,518,487        $142,100          1.5          11           3              1
Medium
             21       $2,049,178,456        $100,000          2.5          79           0              0
             22       $1,619,800,963        $87,993          1.75         285           24             1
             23       $1,600,681,825        $156,470         1.75          22           0              2
             24       $1,544,764,282        $107,900         1.25          65           0              0
             25       $1,246,209,143        $74,248           1.5         190*          2              5
             26       $1,132,721,108        $109,600           2           2            0              0
             27       $1,093,918,076        $81,600            1           83           2              0
             28       $1,066,891,562        $50,953           1.5         246*          5              4
             29       $1,063,221,043        $103,700           1           0            0              0
             30        $993,720,360         $74,100          2.25          46           2              0
             31        $986,682,696         $55,000           1.5          40           7              1
             32        $940,136,850         $97,035           2.5          35           0              2
             33        $573,157,206         $62,600            2           1            0              0
             34        $501,923,887         $45,800            2           7            0              0
             35        $461,651,557         $58,200            1           51           1              3
Small
             36        $418,758,568         $79,300           1.5          13           1              2
             37        $318,344,371         $34,218          1.25          1            0              0
             38        $300,584,905          $7,841          1.25          9            2              2
             39        $287,546,633          $4,400           0.5          1            1              4
             40        $258,659,723         $40,400           0.5          1            0              0
             41        $109,546,573         $15,400          0.25          0            0              2
           TOTAL     $113,071,692,814      $7,641,869       112.75       4,008         184            61

          * Workloads estimated by fraud units.
         ** Proactive cases are a subset of total fraud unit cases.



                                                  )))))))))))
                                                      A-3
         Table 4: Fraud Unit Use of Proactive Methods to Identify Fraud and Abuse
                                           Number of Fraud                 Percent of                 Number of Times
 PROACTIVE METHOD 1                          Units Using                  Fraud Units                Proactive Method was
                                            Method N=41                   Using Method               Used to Open Cases 2

 Data Analysis                                       33                         80%                           133

 Internal and External
                                                     23                         56%                            38
 Networking

 Look for Patterns and
                                                     10                         24%                            11
 Trends (Not Data Analysis)

 Conduct Research and
                                                      8                         20%                             1
 Analysis on Fraud Alerts

 Conduct Medical Review                               7                         17%                            10

 Conduct and Receive
                                                      5                         12%                             0
 Training

 Expand Case                                          5                         12%                             5

 Monitor (e.g.,Edits and
                                                      5                         12%                             1
 Audits)

 Conduct Education or
                                                      4                         10%                             0
 Outreach

 Review News Media                                    4                         10%                             1

 Survey Providers                                     4                         10%                             2


1. Except for “Data Analysis,” all other proactive methods were identified by the fraud units themselves.

2. The total for this column (202) differs from the total number of cases opened proactively (184) because more than one
   proactive method could have been used to open each case.




                                                          )))))))))))
                                                              A-4
                 APPENDIX B



COMMENTS FROM THE HEALTH CARE FINANCING ADMINISTRATION




                      )))))))))))
                          B - 1

)))))))))))
    B - 2

)))))))))))
    B - 3

)))))))))))
    B - 4

)))))))))))
    B - 5

